                                       NATIONAL SCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




             OFFICE OF
         INSPECTORGENERAL


        MEMORANDUM

        Date:            November 6,1998
        To:              File No. I9808002 1
        From:                                                                                            .   --


        Via:
        Re :


1   .   Background:
I



        An audit review of conference awards found indications of pot
                                        Professor of Mathematics, at
        1997 Summer                     rip                  ).

                                                                   entitled



        Investigation:




        In our comparison of source documents, we found the possibility tha                 eceived an
        additional $42 in travel reimbursements for the Summer 1997
        sufficient evidence                  received duplicate travel
                    has stated that there are no additional travel dates for which            recelve
                        on NSF grants.

        Findings:

        Our review of the travel vouchers and source documents for e                  l reimbursements
        has established no evidence of duplicate reimbursement for the same travel expense. No further
        review is warranted at this time. case is closed.
